                                                                AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the State of Arizona, Department of Game and Fish,
From July 1, 2008, Through June 30, 2010




Report No.: R-GR-FWS-0003-2011                                  July 2011
13




                                                                                         July 8, 2011

                                           AUDIT REPORT

Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park
               Director of External Audits

Subject:       Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of Arizona, Department of Game and Fish,
               From July 1, 2008, Through June 30, 2010 (No. R-GR-FWS-0003-2011)

        This report presents the results of our audit of costs claimed by the State of Arizona (the
State), Department of Game and Fish (the Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport
Fish Restoration Program (the Program). The audit included claims totaling approximately $45.6
million on seven grants that were open during State fiscal years (SFYs) ended June 30 of 2009
and 2010 (see Appendix 1). The audit also covered the Department’s compliance with applicable
laws, regulations, and FWS guidelines, including those related to the collection and use of
hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $50,917, however, because the
Department (1) allocated payroll costs of five personnel using an unsupported and unapproved
methodology, (2) charged two Program grants for ineligible printing costs, and (3) claimed an
unreasonable number of hours as its in-kind match under the hunter education program. We also
found that the Department potentially diverted license revenues for the operations of a State
park, did not perform a required environmental compliance checklist, and issued a final
performance report that did not fully meet Federal standards.

        We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 2 responses, as well as our comments on the responses after the recommendations.
We list the status of the recommendations in Appendix 3.




                           Office of Audits, Inspections, and Evaluations | Reston, VA
       Please respond in writing to the findings and recommendations included in this report by
October 6, 2011. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation. Please address your
response to:

                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Chris Krasowski, or me at 703–487–5345.

cc: Regional Director, Region 2, U.S. Fish and Wildlife Service
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations ......................................................................... 3
Appendix 1 ............................................................................................................ 12
Appendix 2 ............................................................................................................ 13
Appendix 3 ............................................................................................................ 14
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (the Acts) 1 established the Wildlife and Sport Fish
Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants. The Acts also require that hunting and fishing license
revenues be used only for the administration of the State’s fish and game agency.
Finally, Federal regulations and FWS guidance require States to account for any
income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •    Claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements.
       •    Used State hunting and fishing license revenues solely for fish and
            wildlife program activities.
       •    Reported and used program income in accordance with Federal
            regulations.

Scope
Audit work included claims totaling approximately $45.6 million on the seven
grants that were open during SFYs 2009 and 2010 (see Appendix 1). We report
only on those conditions that existed during this audit period. We performed our
audit at Department headquarters in Phoenix, AZ, and visited two regional
offices, an aviation unit, a wildlife area, a fish hatchery, a boat access site, a water
catchment, a dam, and two wildlife research projects (see Appendix 2). We
performed this audit to supplement, not replace, the audits required by the Single
Audit Act Amendments of 1996 and by Office of Management and Budget
Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                                                       1
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the
       grants by the Department.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •   Interviewing Department employees to ensure that personnel costs
       charged to the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities.
   •   Determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On June 5, 2007, we issued “Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Program Grants Awarded to the State of Arizona, Department
of Game and Fish, From July 1, 2003 Through June 30, 2005” (No. R-GR-FWS-
0026-2005). We followed up on all recommendations in the report and found that
the U.S. Department of Interior, Office of the Assistant Secretary for Policy,
Management and Budget considered them to be resolved and implemented.

We reviewed Arizona’s Comprehensive Annual Financial Report and Single
Audit Report for SFY 2009 and determined that the Department’s Wildlife and
Sport Fish Restoration Programs were not identified as major programs in the
Single Audit. Neither of these reports contained any findings that would directly
affect the Program grants.




                                                                                    2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified several conditions, however, that resulted in the findings
listed below, including questioned costs totaling $50,917. We discuss the findings
in more detail in the Findings and Recommendations section.

Questioned Costs. We questioned costs totaling $50,917 because the Department
(1) allocated payroll costs of five personnel using an unsupported and unapproved
methodology, (2) charged two Program grants for ineligible printing costs, and
(3) claimed an unreasonable number of hours as its in-kind match under the
hunter education program.

Potential Diversion of License Revenues. The Department used $20,000 in
revenues from license fees to pay for general operating expenditures of a State
park.

Environmental Noncompliance. The Department did not complete a required
environmental compliance checklist to ensure that its Program activities did not
cause environmental harm.

Inadequate Performance Reporting. A Department performance report did not
report all activities undertaken with grant funds and included accomplishments
not approved in the grant’s project statement.

Findings and Recommendations
A. Questioned Costs — $50,917

1. Unsupported Payroll Costs — $20,700

We found that the payroll costs of five employees charged to Grants FW-100-P-
16 and FW-100-P-17 were not based on the actual time employees worked on
eligible Program activities. Instead, the Department’s accounting office allocated
the employees’ time among various funding sources, including the Program
grants, license revenues, and other funds, using predetermined percentages. We
found no documented methodology or evidence of approval from FWS to support
these allocations.

The Code of Federal Regulations (CFR) outlines cost principles that States must
follow when compensating employees for work performed under Federal awards.



                                                                                   3
According to 2 CFR § 225, Appendix B, subsection 8.h(4), “Where employees
work on multiple activities or cost objectives, a distribution of their salaries or
wages will be supported by personnel activity reports.” Furthermore,
2 CFR § 225, Appendix B, subsection 8.h(5)(e), notes that budget estimates or
other distribution percentages determined before the services are performed do
not qualify as support for charges to Federal awards.

This issue occurred because the Department did not have policies and procedures
in place to ensure that payroll expenses paid by Program grants were based on the
actual number of hours employees worked on eligible activities. Therefore, we are
questioning $27,599 (Federal share $20,700) for FW-100-P-16 ($10,378) and
FW-100-P-17 ($10,322), for the unsupported payroll costs that were
automatically allocated among work codes.

 Recommendations

 We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $20,700.

    2. Work with the Department to implement policies and procedures to
       ensure payroll expenses are supported by documentation that reflects
       the actual activity of each employee.


Department Response
The Department stated that it has changed procedures and instructed employees
whose work has multiple beneficiaries to record their time to appropriate eligible
codes. The Department documented overmatch to cover the questioned costs and
will be revising the Federal Financial Reports.

FWS Response
FWS Regional officials concurred with the finding and the Department’s
comments and proposed corrective actions.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.


                                                                                      4
2. Ineligible Printing Expenses — $18,190

The Department publishes and sells a magazine about the State’s wildlife, called
Arizona Wildlife Views. The Department charged Grants FW-100-P-16 and
FW-100-P-17 for a portion of the magazine’s printing costs, even though this
activity was not identified in the grant project statements submitted to FWS for
approval.

According to 50 CFR § 80.14(a), States must apply Program funds only to
activities or purposes approved by the FWS Regional Director. Furthermore,
according to 522 FW 4.5F of the FWS Manual, Comprehensive Management
System (CMS) States must submit a grant proposal to the Regional Office that
describes the programs the CMS grant will cover.

This issue occurred because a Department employee incorrectly charged the
magazine printing costs to the grants. As a result, we are questioning $15,000
($9,600 Federal share) related to Grant FW-100-P-16 and $12,275 ($8,590
Federal share) related to Grant FW-100-P-17, for a total of $27,275 ($18,190
Federal share).

Recommendation

We recommend that FWS resolve the questioned costs totaling $18,190.


Department Response
The Department did not agree with the finding as written but reversed the costs
associated with this finding in a revised Federal Financial Report.

FWS Response
FWS Regional officials concurred with the audit finding and proposed corrective
actions.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                   5
3. Ineligible In-Kind Match — $12,027

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
Noncash (“in-kind”) contributions may be used to meet States’ matching share of
costs, and as with costs claimed for reimbursement, States must support the value
of these contributions. We reviewed a sample of volunteer labor donated by
individuals who taught hunter education courses under Grant FW-100-P-17. The
lead instructors for three courses claimed an unreasonable number of hours for
travel and preparation. They averaged 261 travel and preparatory hours per class,
while the remaining lead instructors in our sample averaged 14.56 travel and
preparatory hours per class.

This issue is contrary to 2 CFR § 225, Appendix A, subsection C.2, which states
that a cost is reasonable if, in its nature and amount, it does not exceed that which
would be incurred by a prudent person under the circumstances prevailing at the
time the decision was made to incur the cost.

The Department had not established policies and procedures to limit the number
of hours that volunteers could reasonably claim for travel and class preparation
time. We therefore determined that 739 hours valued at $21.69 per hour were
unreasonable, and questioned $16,036 ($12,027 Federal share) claimed under
Grant FW-100-P-17, as indicated in the table below.


               Average
                 Prep       Actual
     Class       And       Prep And
     Begin      Travel      Travel Questioned          Hourly      Questioned
     Date       Hours       Hours    Hours             Rate          Costs
   9/8/2009      14.56        223    208.44            $21.69         $4,521
   1/12/2010     14.56        387    372.44             21.69          8,078
    9/8/2009     14.56        173    158.44             21.69          3,437
     Total                   783    739.32                           $16,036


 Recommendations

 We recommend that FWS:

    1. Resolve the $12,027 of questioned costs.

    2. Require the Department to establish policies and procedures limiting
       volunteer travel and preparation hours used as in-kind match to a
       reasonable amount.



                                                                                    6
Department Response
The Department did not concur with the finding. The Department agrees the
questioned hours seem out of line with those of other volunteer instructors, but
those volunteer instructors justified the seemingly excessive hours. As the
Department does not concur with the finding, it disagrees with the need to resolve
the questioned costs.

FWS Response
FWS Regional officials understand and appreciate the efforts the instructors
provided to the Program; unfortunately, those services were not documented
appropriately and therefore are not allowable costs for this grant.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan, including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Potential Diversion of License Revenues

Under Program regulations found in 50 CFR § 80.4, any revenue collected from
the sale of hunting and fishing licenses shall be used only to administer the State’s
fish and wildlife agency. The FWS Director could declare a diversion of funds if
license revenues are used for any other purpose. The Department, however, paid
Arizona State Parks $20,000 from its license revenues to supplement general
operating expenditures related to employee salaries, campgrounds, boat ramps,
and a fishing dock at Roper Lake State Park.

This payment occurred to keep Roper Lake State Park open to the public during a
funding shortfall. As a result, fish and wildlife activities did not benefit from the
$20,000 in license revenues. This potential diversion could furthermore
jeopardize the State’s eligibility to participate in the Program.

 Recommendation

 We recommend that FWS resolve the potential diversion of license revenues
 totaling $20,000.




                                                                                    7
Department Response
The Department did not agree with the finding as written. The Department
purchased the Roper Lake property and entered into a cooperative agreement with
Arizona State Parks to operate the lake and surrounding property as a State park.
The Department retains ownership and maintains responsibility for managing the
water of the lake itself and wildlife within the Park.

FWS Response
FWS Regional officials agreed that the costs incurred are reasonable and
necessary to protect Department property and maintain recreational fishing
opportunities at Roper Lake.

OIG Comments
Based on the Department and FWS responses, we consider the recommendation
resolved and implemented.

C. Environmental Noncompliance

Federal regulations and FWS guidelines require State agencies to ensure that
grant projects comply with Federal environmental legislation, including the
National Environmental Policy Act (NEPA), the Endangered Species Act (ESA)
and the National Historic Preservation Act (NHPA). The State developed an
environmental assessment checklist to serve as its chief control to ensure that it
documents compliance with this legislation, and when necessary, forwards
information to the FWS Regional office for a determination of compliance.
Department officials, however, did not complete the checklist for 50 Program-
funded projects between July 1, 2008, and June 30, 2010.

According to 522 FW 4.5C(1), each CMS State must submit sufficient
documentation to the FWS Region so that FWS staff can determine compliance
with NEPA, ESA, and NHPA. Furthermore, 522 FW 4.5E requires the State’s
grant proposal to include a description of its CMS compliance process. This
State’s CMS compliance process description notes that the Department employs a
checklist to guide its environmental assessment process. The completed checklist
is then to be used by FWS to ensure compliance with Federal environmental
regulations.

The Department did not follow its procedures regarding environmental
compliance due to personnel turnover and the need for training in this area.
As a result, the impact of the Department’s Program activities was not evaluated
by the FWS Region for environmental compliance.

We noted that the Department has already taken a number of steps to address this
issue, including:




                                                                                     8
    (1) Providing Project Leader training (including a section on ensuring
        compliance with the intent of NEPA) to project leaders and assistant
        project leaders by instructors from the National Conservation Training
        Center at the Department’s headquarters in Phoenix, AZ.
    (2) Providing training to all employees through the Department’s Project
        Evaluation and Environmental Compliance Group.
    (3) Developing a database capable of tracking all projects for environmental
        compliance.
    (4) Proposing enhancements to its policies and procedures in its most recent
        5-year plan submitted to FWS.
    (5) Proposing limits to project budgets until the Federal Aid Coordinator
        ascertains that environmental compliance requirements have been met.

In spite of these efforts, additional steps are required to ensure that the
Department’s projects comply with Federal regulations, as outlined in the
recommendations below.

Recommendations

We recommend that FWS:

    1. Work with the Department to develop a database to ensure that all
       projects have an environmental checklist performed and to provide
       results to the FWS region.

    2. Ensure the Department establishes and implements adequate policies
       and procedures specific enough for personnel to comply with NEPA,
       ESA, NHPA, and other environmental guidelines and regulations.

    3. Work with the Department to identify, evaluate, and document the
       impact of the Department’s Program activities for the 50 Program-
       funded projects between July 1, 2008, and June 30, 2010, and take
       remedial action as appropriate.


Department Response
The Department concurred with the finding and clarified that bullet (1) is not
accurate. The Department did not provide training to all employees at the
National Conservation Training Center. Proposed changes by the Department
should be “(1) Providing Project Leader training (includes a section on ensuring
compliance with the intent of NEPA) to Project Leaders and Assistant Project
Leaders by National Conservation Training Center instructors at the Department’s
Headquarters in Phoenix, Arizona.” It also suggested another bullet that
Endangered Species Act (ESA) training was mandated for all field and some
other employees.


                                                                                   9
The Department acknowledged it has developed a database, provided
Environmental Assessment Checklist (EAC) training on environmental
compliance, and prepared a spreadsheet with projects listed along with the
impacts. The Department has documented overmatch that can be used to cover
questioned costs and will revise the Federal Financial Report.

FWS Response
FWS Regional officials concurred with the audit finding and with the
Department’s comments, requested changes for audit verbiage, and proposed
corrective actions. The Service stated that any ineligible costs must be repaid.

OIG Comments
Based on the Department and FWS responses, we revised the wording on
bullet (1); however, additional information is needed in the corrective action plan,
including:

     •   The specific action(s) taken or planned to address the recommendations.
     •   Targeted completion date.
     •   Titles of officials responsible for implementing the actions taken or
         planned.
     •   Verification that FWS headquarters officials reviewed and approved of
         actions taken or planned by the Department.

D.       Inadequate Performance Reporting

States must submit project statements to FWS outlining proposed objectives for
each project funded by a grant. Upon completion of a grant, they are required to
submit a performance report that compares actual accomplishments to the
approved objectives. These documents provide key information to help FWS
ensure that States have spent funds appropriately and achieved project goals. We
noted, however, that the State did not always meet these requirements on Grant
FW-100-P-16. Specifically:

     •   The Department used grant funds to prepare emergency action plans
         addressing dam failures, but this activity was not mentioned in either the
         grant’s project statement or performance report.
     •   The Department used approximately $226,000 in grant funds to maintain
         dams; while this activity was discussed in the performance report, it was
         not mentioned in the grant’s project statement.
     •   The Department performed administrative oversight of the National
         Audubon Society’s Important Bird Area Program; while this activity was
         discussed in the performance report, it was not mentioned in the grant’s
         project statement.

According to 522 FW 1.3, information contained in the grant proposal, including
project objectives, is the basis on which the Regional Director determines whether

                                                                                   10
the proposed work meets eligibility requirements. In addition, 43 CFR §
12.80(b)(2)(i), states that performance reports for each grant should contain a
comparison of actual accomplishments to the objectives established for the grant.

This issue occurred because the Department did not have an adequate process in
place to ensure that its project statements and performance reports met Federal
requirements. FWS may therefore be unable to rely on the reports to determine
whether the Department achieved project goals and appropriately spent its
Program funds.

Recommendations

We recommend that FWS direct the Department to implement a process to
ensure:

       1. Project statements’ objectives are clear and complete and list all
          activities specific to the grant, including expense allocation methods for
          projects with multiple beneficiaries, as required by FW 522 1.3C.

       2. Final performance reports meet the requirements of 43 CFR §
          12.80(b)(2).


Department Response
The Department concurred with the finding and stated that it has implemented
changes to the structure and content of the annual job statements.

FWS Response
FWS Regional officials concurred with the finding and the Department’s
comments and proposed corrective actions.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:

   •    The specific action(s) taken or planned to address the recommendations.
   •    Targeted completion date.
   •    Titles of officials responsible for implementing the actions taken or
        planned.
   •    Verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.




                                                                                   11
Appendix 1
                 Arizona Department of Game and Fish
                 Financial Summary of Review Coverage
                   July 1, 2008, Through June 30, 2010

                                                Questioned Costs (Federal Share)

Grant Number   Grant Amount   Claimed Costs   Ineligible   Unsupported     Total
FW-100-P-16     $20,667,078    $19,986,986       $9,600      $10,378     $19,978
FW-100-P-17      24,316,854     22,470,964       20,617       10,322      30,939
F-19-D-21         1,137,306       292,797
F-19-D-22         1,224,273       514,564
F-19-D-23         1,645,744       762,923
F-19-D-24         1,693,475       986,979
F-19-D-25         1,592,301       598,393
Totals         $52,277,031    $45,613,606      $30,217      $20,700      $50,917




                                                                                   12
Appendix 2

                    State of Arizona
              Department of Game and Fish
                      Sites Visited

                      Headquarters
                        Phoenix

                    Regional Offices
                       Kingman
                         Mesa

                     Aviation Unit
                   Deer Valley Airport

                      Wildlife Area
                      Robins Butte

                     Fish Hatchery
                      Tonto Creek

                      Boat Access
                      Lake Havasu

                  Water Catchment
                Mohave #1 - Lake Havasu

                          Dam
                   Black Canyon Lake

               Wildlife Research Projects
       Big Horn Sheep Crossing - Highway 93 Project
         Deer/Elk Crossing - Highway 260 Project




                                                      13
Appendix 3
                              State of Arizona
                       Department of Game and Fish
              Status of Audit Findings and Recommendations

Recommendations               Status                  Action Required
A.1.1, A.1.2, A.2,    FWS management             Based on the FWS response,
A.3.1, A.3.2, C.1,    concurs with the           additional information is
C.2, C.3, D.1, D.2    recommendations, but       needed in the corrective
                      additional information     action plan, as listed in the
                      is needed as outlined in   Findings and
                      the “Action Required”      Recommendations section
                      column.                    under OIG Comments. We
                                                 will refer the
                                                 recommendations, if not
                                                 resolved and/or implemented
                                                 at the end of 90 days (after
                                                 October 6, 2011), to the
                                                 Assistant Secretary for
                                                 Policy, Management and
                                                 Budget for resolution and/or
                                                 tracking of implementation.

B                     Based on the FWS           No further action is
                      response, we consider      necessary.
                      the recommendation
                      resolved and
                      implemented.




                                                                             14
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
